No. 19-982
In the

Supreme Court of the United States
ERICA Y. BRYANT, et al.,
Petitioners,
v.
UNITED STATES OF AMERICA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY BRIEF
Donald D.J. Stack, Esq.
260 Peachtree Street, NW,
Suite 1200
Atlanta, GA 30303
(404) 692-7504
		
– and –
Robert B. Jackson, IV, LLC
260 Peachtree Street, NW,
Suite 2200
Atlanta, GA 30303
(404) 313-2039
Counsel for Petitioner
Erica Y. Bryant

Jay L. T. Breakstone
Counsel of Record
Parker Waichman LLP
Six Harbor Park Drive
Port Washington, NY 11050
(516) 466-6500
jbreakstone@yourlawyer.com
Counsel for Petitioner
Linda Jones
A lton C. Todd
The Law Firm of A lton C. Todd
312 South Friendswood Drive
Friendswood, TX 77546
(281) 992-8633
Counsel for Petitioners Daniel
Gross, II and Robert Burns

(For Continuation of Appearances See Inside Cover)
294199

Joseph L. A nderson
Douglas P. Desjardins
The Pangia Law Group
1717 N Street, NW
Washington, DC 20036
(202) 955-6450
Counsel for Petitioner
Sharon Kay Boling
J. Edward Bell, III
Lori K. Cromartie
Bell Legal Group
219 Ridge Street
Georgetown, SC 29440
(843) 546-2408
Counsel for Petitioner
Estelle Rivera

1
INTRODUCTION
Though this case presents as one which only seeks to
restore the primary directive of MDL proceedings, that parties
who have their cases transferred from one court to another in
an MDL proceeding are treated no differently than they would
be in their home courts, much more is at stake. Thousands of
Marines and their families stand in the wings1, having been
injured by their government while serving in its defense at
Camp Lejeune in North Carolina, and ask nothing more than
that. While the government has not disputed what went on at
Camp Lejeune, it nonetheless argues for denial of the petition,
secure in the result that none of these claims will ever be heard.
That result would be in derogation of not only the legislature
of the state which passed the statute of repose at issue, but of the
circuit court for that state which agreed with the legislature’s
stated intent. In order to accomplish that, however, the Court
would have to favor the decision of an MDL transferee court,
which interprets the statutes of the transferor state differently,
together with the circuit court for that transferee state as
well. This requires that the Court agree that the practical
result, having these claims and others like them dismissed
only because of the choice of an MDL court, is consistent not
only with the sense and purpose of multi-district litigation, but
with the purpose and intent of the State of North Carolina as
explicitly expressed by its legislature.
The petition should be granted.
1. The district court below estimated there were “over 4,000
claimants in the administrative process” with the government at that
time. In re Camp Lejeune North Carolina Water Contamination
Litigation, 263 F.Supp.3d 1318, 1325 (N.D. Ga. 2016). With the
administrative dismissal of these claims, they can only look to this
Court for relief.

2
ARGUMENT
THE ACTION OF THE CIRCUIT COURT
STANDS IN DEROGATION OF THE
INTENT AND PURPOSE OF MULTIDISTRICT LITIGATION
The government provides no reason which can
sustain the decision of the circuit court in ignoring the
obvious. Had that court been sitting in the circuit which
encompassed North Carolina, the place of the occurrence,
it could not have properly affirmed the dismissal of
plaintiffs’ actions. More particularly, reviewing the actions
of an MDL transferee court, had it properly applied
the law of the transferor court located, North Carolina,
no statute of repose would have been applicable to bar
plaintiffs’ claims. This was the conclusion of the Fourth
Circuit, which encompasses North Carolina, in Stahle
v. CTS Corp., 817 F.3d 96 (4th Cir. 2016) and the North
Carolina legislature in its Clarifying Statute, N.C. Sess.
L. 2014-44, § 1 (Pet. at 3-5).
The government agrees that the question decided
by the Eleventh Circuit was one of state law. Opp. at 7.
However, its rationale was that the court of appeals made
the correct decision as to what that state law was simply
because it said so in its own earlier decision in this case in
Bryant v. United States [“Bryant I”], 768 F.3d 1378 (11th
Cir. 2014). Id. at 8.
The government’s reliance on the opinion below
requires it to support the circuit court’s contention that
even if the court had been wrong in Bryant I, it must
adhere to that wrong decision until overruled by this
Court or by that court, sitting en banc. Opp. at 8 [1(a)].

3
No authority cited by the government, however, restrains
a court from correcting its own bad law. The court of
appeals’ rejection of Stahle was not based on the majority
opinion of the 4th Circuit, but on a passing comment
from its concurring opinion that North Carolina law was
“unsettled,” though not so “unsettled” that the writer did
not concur in the result; a result that was entirely opposite
to that of the Eleventh Circuit here. Opp. at 9. Rejecting
the opinion of the circuit court whose jurisdiction actually
included the state whose statute was at issue; a court
that was infinitely more familiar with North Carolina, its
statutory framework, and its legislature, makes no sense,
especially when a court is ultimately reviewing the actions
of an MDL transferee court. 28 USC 1407 (transferee
court in MDL action to apply state law that transferor
court would have applied). 2 The law of North Carolina
is not what the court of appeals said it was and saying it
twice, incorrectly, does not cure that error. 3
The government’s effort to cleanse the court of appeals
disdain for the law of North Carolina is ineffective. The
circuit court argued that the North Carolina statute of repose
was “unambiguous” and does not involve any exception for
causes of action involving latent diseases. Opp. at 10. The
problem with that is the North Carolina legislature, which
was so concerned with ambiguity that it passed a particular
2. In a similar manner the Federal Tort Claims Act would also
require that the law of the jurisdiction where the tort occurred,
North Carolina, control. 18 USC 1346(b)(1).
3. The government’s statement that Plaintiffs’ did not raise
the argument below that the circuit court should have set aside its
prior precedent in Bryant I is wishful thinking. Opp. at 9 [1(b)] For
example, even in its opening words, the brief of Plaintiff Jones stated
that for the circuit court to rely on its prior decision in Bryant I
would be a “manifest injustice.” Jones C.A. Br. at 2.

4
statute — a “Clarifying Act”4 — to eliminate any “ambiguity
and uncertainty” (Pet. at 3) do just that; not to rewrite the
statute, but to dispel any chance that it would be misread
or misinterpreted. While the government insists that the
Clarifying Act is a “revision of the statute of repose” it is
not, and required no retroactive application by the court of
appeals. Opp. at 11. It only required that the law be applied
as the legislature originally intended to be: “The General
Assembly finds that it never intended the statute of repose
in G.S. 1-52(16) to apply to claims for latent disease caused or
contributed to by groundwater contamination, or to claims
for any latent harm caused or contributed to by groundwater
contamination.” Pet. at 3. It would be odd, indeed, for any
legislature to pass such a statute where the statute in
question was “unambiguous,” as the government suggests.
Moreover, if the statute is a clarification, as the legislature
intended, then it is not a revision and there is no question
of retroactivity. See Opp. at 11. That intent is the essence
of a statute to repose. CTS Corp. v. Walburger, 573 U.S. 1,
9 (2014) (statutes of repose effect a legislative judgment of
when and under what circumstances a defendant should be
free from liability).
The petition justifiably seeks review of a circuit court
decision that has effectively non-suited thousands of
servicemen and their families injured at Camp Lejeune
by ignoring the language and intent of a North Carolina
statute. The court accomplished this by failing to heed not
only the directives of the legislature, but the decision of a
sister circuit encompassing North Carolina. In this MDL,
the actions of the court below ensured that plaintiffs were
not treated in the transferee court in the same manner
that they would be treated by the transferor court.
4. The legislature used this term in the legislation itself, as the
circuit court noted in Bryant I at 1383-1384.

5
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Donald D.J. Stack, Esq.
260 Peachtree Street, NW,
Suite 1200
Atlanta, GA 30303
(404) 692-7504
		
– and –
Robert B. Jackson, IV, LLC
260 Peachtree Street, NW,
Suite 2200
Atlanta, GA 30303
(404) 313-2039
Counsel for Petitioner
Erica Y. Bryant
Joseph L. A nderson
Douglas P. Desjardins
The Pangia Law Group
1717 N Street, NW
Washington, DC 20036
(202) 955-6450
Counsel for Petitioner
Sharon Kay Boling

Jay L. T. Breakstone
Counsel of Record
Parker Waichman LLP
Six Harbor Park Drive
Port Washington, NY 11050
(516) 466-6500
jbreakstone@yourlawyer.com
Counsel for Petitioner
Linda Jones
A lton C. Todd
The Law Firm of A lton C. Todd
312 South Friendswood Drive
Friendswood, TX 77546
(281) 992-8633
Counsel for Petitioners Daniel
Gross, II and Robert Burns
J. Edward Bell, III
Lori K. Cromartie
Bell Legal Group
219 Ridge Street
Georgetown, SC 29440
(843) 546-2408
Counsel for Petitioner
Estelle Rivera

